 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


    Independent Review of The U.S. Coast 

     Guard’s Reporting of FY 2007 Drug 

            Control Obligations 





OIG-08-42                    April 2008
                                                                          Office of Inspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                           April 18, 2008

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report represents the results of the review of the Table of Drug Control Obligations of the U.S.
DHS Coast Guard (USCG) for the year ended September 30, 2007, for the Office of National Drug
Control Policy (ONDCP). We contracted with the independent public accounting firm KPMG LLP
to perform the review. USCG’s management prepared the Table of Drug Control Obligations and
related disclosures to comply with the requirements of the ONDCP Circular, Drug Control
Accounting, dated May 1, 2007. However, USCG’s management could not provide assurances as to
the integrity of the financial data contained in its Table of Prior Year Drug Control Obligations and
related disclosures. As a result KPMG was unable to provide a report on the Table of Prior Year
Drug Control Obligations and related disclosures.

It is our hope that the information in future reports will result in effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                               Richard L. Skinner 

                                               Inspector General 

                               KPMG LLP                                  Telephone 2025333000
                               2001 M Street. NW                         Fax       2025338500
                               Washington, DC 20036                      Internet  www.us.kpmg.com




February 19,2008


Ms. Anne Richards
Assistant Inspector General for Audits
Office of the Inspector General
U.S. Department of Homeland Security
1120 Vermont Avenue, NW
Washington, DC 20005


Dear Ms. Richards:

We were engaged to review the Table of Prior Year Drug Control Obligations and related
disclosures, and the accompanying management's assertions of the Department of Homeland
Security's (DHS) U.S. Coast Guard (Coast Guard) for the year ended September 30,2007. Coast
Guard management is responsible for the Table of Prior Year Drug Control Obligations and
related disclosures, and the assertions.                            .

The Office of National Drug Control Policy (ONDCP) Circular: Drug Control Accounting (May
l, 2007), requires management to disclose any material weaknesses or other findings affecting the
presentation of data repOlied. Management reported that it "cannot provide assurances as to the
integrity of the financial data contained" in its Table of Prior Year Drug Control Obligations and
related disclosures.

In accordance with applicable professional standards, without a positive assertion provided by
management we are unable to complete our review of Coast Guard's Table of Prior Year Drug
Control Obligations, and related disclosures, and management's assertion. Accordingly, we are
unable to provide an Independent Accountants' Report on the Table of Prior Year Drug Control
Obligations and related disclosures, and management's assertions pursuant to the requirements of
ONDCP Circular: Drug Control Accounting (May I, 2007).


Sincerely,

KPMGLLP



Scot G. Janssen,
Partner
Report Distribution



      Department of Homeland Security
      Secretary 

      Deputy Secretary 

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Audit Liaison 

      Assistant Secretary for Policy 

      Assistant Secretary for Legislative Affairs 

      Assistance Secretary for Public Affairs 

      Under Secretary for Management 

      Chief Financial Officer 


      Office of National Drug and Control Policy
      Associate Director for Planning and Budget

      U.S. Coast Guard
      Commandant           

      Chief Financial Officer 

      USCG Audit Liaison           


      Office of Management and Budget
      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
